No. 19-

 

 

IN THE

Supreme Court of the United States

BOLIVARIAN REPUBLIC OF VENEZUELA AND
PETROLEOS DE VENEZUELA, S.A,

Petitioners,

Vv.

CRYSTALLEX INTERNATIONAL CORPORATION,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the doeument contains
8,976 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020.

 

Wilson-Epes Printing Co., Inc.
